No.
In The

Supreme Court of tlje Mntteb States;
Nicole Johnson-Gellineau,
Petitioner,
v.
Stiene & Associates, P.C.;
Christopher Virga, Esq.; Ronni Ginsberg, Esq.;
. JPMorgan Chase Bank, National Association;
Wells Fargo Bank National Association,
As Trustee For Carrington Mortgage Loan
Trust, Series 2007-FREl, Asset-Backed PassThrough Certificates,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit
APPENDIX

Nicole Johnson-Gellineau
Petitioner
149 Wilkes Street
Beacon, New York 12508
Phone: 646-456-1151
nikkigelly@gmail .com

1

TABLE OF CONTENTS
TABLE OF CONTENTS.......................

1

APPENDIX A - Order Denying Rehearing
APPENDIX B - Court of Appeals Decision
APPENDIX C - District Court Decision....

1
2
9

1
APPENDIX A - Order Denying Rehearing
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 18th day of
December, two thousand twenty.
Nicole Johnson_Gellineau,
Plaintiff - Appellant,
v.
Stiene & Associates, P.C., Christopher Virga, Esq.,
Ronni Ginsberg, Esq., JPMorgan Chase Bank
National Association, Wells Fargo Bank National
Association, As Trustee for Carrington Mortgage
Loan Trust, Series 2007- FRE1, Asset-Backed PassThrough Certificates,
Defendants - Appellees
ORDER
Docket No: 19-2236
Appellant, Nicole Johnson-Gellineau, filed a
petition for panel rehearing, or, in the alternative,
for rehearing en banc. The panel that determined the
appeal has considered the request for panel
rehearing, and the active members of the Court have
considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

2

APPENDIX B - Court of Appeals Decision
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANU­
ARY 1, 2007, IS PERMITTED AND IS GOVERNED
BY FEDERAL RULE OF APPELLATE PROCE­
DURE 32.1 AND THIS COURT’S LOCAL RULE
32.1.1. WHEN CITING A SUMMARY ORDER IN A
DOCUMENT FILED WITH THIS COURT, A PAR­
TY MUST CITE EITHER THE FEDERAL APPEN­
DIX OR AN ELECTRONIC DATABASE (WITH
THE NOTATION A “SUMMARY ORDER”). A PAR­
TY CITING TO A SUMMARY ORDER MUST
SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 17th day of
November, two thousand twenty.
PRESENT:

RAYMOND J. LOHIER, JR.,
MICHAEL H. PARK,
Circuit Judges,
JED S. RAKOFF,* Judge.

* Judge Jed S. Rakoff, of the United States District Court for
the Southern District of New York, sitting by designation.

3

NICOLE JOHNSON-GELLINEAU,
Plaintiff - Appellant,
v.
STIENE & ASSOCIATES, P.C., CHRISTOPHER
VIRGA, ESQ., RONNI GINSBERG, ESQ.,
JPMORGAN CHASE BANK NATIONAL ASSOCIA­
TION, WELLS FARGO BANK NATIONAL ASSO­
CIATION, AS TRUSTEE FOR CARRINGTON
MORTGAGE LOAN TRUST, SERIES 2007-FRE1,
ASSET-BACKED PASS- THROUGH CERTIFI­
CATES,
Defendants-Appellees.
No. 19-2236-cv
FOR PLAINTIFF-APPELLANT:
Nicole Johnson-Gellineau, pro se, Beacon, NY.
FOR DEFENDANTS-APPELLEES .
STIENE & ASSOCIATES, P.C., CHRISTOPHER
VIRGA, ESQ., RONNI GINSBERG, ESQ.:
Matthew J. Bizzaro, L’Abbate, Balkan, Colavita &
Contini, L.L.P., Garden City, NY.
FOR DEFENDANTS-APPELLEES
JPMORGAN CHASE BANK NATIONAL
ASSOCIATION, WELLS FARGO BANK NATIONAL
ASSOCIATION, AS TRUSTEE FOR CARRINGTON
MORTGAGE LOAN TRUST, SERIES 2007-FRE1,
ASSET-BACKED PASS-THROUGH
CERTIFICATES:
Brian P. Scibetta, McCalla Raymer Leibert Pierce,
New York, NY.

4
Appeal from a judgment of the United States
District Court for the Southern District of New York
(Kenneth M. Karas, Judge).
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of the District Court is AFFIRMED.
Plaintiff-Appellant Nicole Johnson-Gellineau,
appearing pro se, appeals from a judgment entered
June 27, 2019 by the United States District Court for
the Southern District of New York (Karas, J.),
dismissing her claims against Defendants-Appellees
Stiene & Associates, P.C. (“Stiene”), former Stiene
attorneys Christopher Virga and Ronni Ginsberg
(together with Stiene, the “Attorney Defendants”),
JPMorgan Chase Bank National Association
(“Chase”), and Wells Fargo Bank National
Association, as Trustee for Carrington Mortgage
Loan Trust, Series 2007-FREl, Asset-Backed PassThrough Certificates (“Wells Fargo,” and, together
with Chase, the “Bank Defendants”). In her
Amended Complaint, Johnson-Gellineau alleged
violations of the Fair Debt Collection Practices Act
(“FDCPA”), 15 U.S.C. § 1692 et seq. The District
Court granted with prejudice the Bank Defendants’
motion to dismiss and the Attorney Defendants’
motion for judgment on the pleadings. We assume
the parties’ familiarity with the underlying facts and
prior record of proceedings, to which we refer only as
necessary to explain our decision to affirm. In
evaluating a motion to dismiss pursuant to Rule
12(b)(6) or a motion for judgment on the pleadings
pursuant to Rule 12(c), a court must accept all facts
set forth in the complaint as true and draw all
reasonable inferences in favor of the plaintiff. See
Vega v. Hempstead Union Free Sch. Dist., 801 F.3d

5

72, 78 (2d Cir. 2015). To survive either motion, a
plaintiffs complaint “must contain sufficient factual
matter, accepted as true, to state a claim to relief
that is plausible on its face.” WC Capital Mgmt., LLC
v. UBS Secs., LLC, 711 F.3d 322, 328 (2d Cir. 2013)
(quoting Johnson v. Rowley, 569 F.3d 40, 44 (2d Cir.
2009)). We liberally construe pro se filings to raise
the strongest claims they suggest. See Hill v.
Curcione, 657 F.3d 116, 122 (2d Cir. 2011). We
review de novo the dismissal of Johnson-Gellineau’s
claims under Federal Rules of Civil Procedure
12(b)(6) and 12(c). Nicosia v. Amazon.com, Inc., 834
F.3d 220, 230 (2d Cir. 2016); Bank of N.Y. v. First
Millennium, Inc., 607 F.3d 905, 922 (2d Cir. 2010).
1. The Bank Defendants
We agree with the District Court that the claims
against the Bank Defendants must be dismissed.
Johnson-Gellineau challenges the District Court’s
conclusion that Wells Fargo, in its capacity as
trustee, did not act as a “debt collector” within the
meaning of the FDCPA as her claim requires, but
instead acted as a “creditor.” See 15 U.S.C. §§ 1692a,
1692e. Regardless, Johnson-Gellineau fails to
plausibly plead that Wells Fargo “use[d] any false,
deceptive, or misleading representation or means in
connection with the collection of [her] debt,” in
violation of 15 U.S.C. § 1692e. Johnson-Gellineau
challenges only two representations, both of which
are filings in related foreclosure proceedings that
identify Wells Fargo, in its capacity as trustee, as the
party to whom she owes a specified debt. JohnsonGellineau’s argument that these representations
were false or misleading is contradicted by the
judgment of foreclosure against her and therefore is
barred by virtue of issue preclusion.

6
We also agree with the District Court’s
conclusion that Chase was not a debt collector
because the loan was not in default when Chase
became a servicer to the mortgage. See 15 U.S.C.
§ 1692a(6)(F)(iii); Roth v. CitiMortgage Inc., 756 F.3d
178, 183 (2d Cir. 2014). The District Court reasoned
that Johnson-Gellineau acknowledged that EMC
Mortgage Corp. (“EMC”) serviced her loan prior to
her default, that all of EMC’s residential mortgage
loan servicing rights were transferred to Chase
pursuant to a judicially noticeable consent order, and
that Chase therefore stood in EMC’s shoes as the
pre-default
loan
servicer.
Johnson-Gellineau
contends that the District Court’s reasoning is wrong
for three reasons, none of which is persuasive.
Contrary to Johnson-Gellineau’s first contention, the
District Court was permitted to take judicial notice
of the consent order. See Fed. R. Evid. 201(b);
Rothman v. Gregor, 220 F.3d 81, 92 (2d Cir. 2000).
Johnson-Gellineau next argues that statutory
exceptions to the definition of “debt collector” are
affirmative defenses. But our precedent requires
plaintiffs to plead that the exceptions do not apply.
See Roth, 756 F.3d at 183 (“[T]he amended complaint
does not allege that CitiMortgage acquired Roth’s
debt after it was in default and so fails to plausibly
allege that CitiMortgage qualifies as a debt collector
under
FDCPA.”).
Finally,
Johnson-Gellineau
contends that there is no evidence that EMC’s
servicing rights were transferred to Chase. But the
plain text of the consent order provides that all of
EMC’s residential mortgage servicing rights were
transferred to Chase. Johnson-Gellineau does not
otherwise dispute that Chase stood in EMC’s shoes
and is therefore deemed to have been the loan
servicer prior to default.

7

2. The Attorney Defendants
Johnson-Gellineau alleges that the Attorney
Defendants violated at least two, and perhaps three
provisions of the FDCPA. We conclude that the
District Court properly granted the Attorney
Defendants’ motion for judgment on the pleadings as
to all alleged violations. She first asserts that the
Attorney Defendants violated 15 U.S.C. § 1692c(b) by
communicating with the Dutchess County clerk in
connection with foreclosure proceedings. We agree
with the District Court that such communications do
not violate § 1692c(b), which prohibits debt collectors
from communicating with third parties in connection
with collection of the debt without the prior consent
of the debtor or the express permission of a court of
competent jurisdiction. See Heintz v. Jenkins, 514
U.S. 291, 296 (1995) (“[I]t would be odd if the Act
empowered a debt-owing consumer to stop the
‘communications’ inherent in an ordinary lawsuit
and thereby cause an ordinary debt-collecting
lawsuit to grind to a halt.”); Cohen v. Rosicki, Rosicki
& Assocs., P.C., 897 F.3d 75, 83 (2d Cir. 2018)
(noting that “mortgage foreclosure is contemplated”
by the FDCPA).
The District Court also correctly determined
that Johnson-Gellineau failed to plausibly plead that
the Attorney Defendants’ communications with the
Dutchess County clerk included a false, deceptive, or
misleading representation, in violation of 15 U.S.C.
§ 1692e. The only representation that JohnsonGellineau challenges is the Attorney Defendants’
statement that her debt was owed to Wells Fargo. As
explained, this argument is precluded by the
judgment of foreclosure. Johnson-Gellineau also
alleges that the Attorney Defendants made a false,

8

deceptive, or misleading representation by failing to
include the name of the creditor to whom the debt is
owed in their “initial communication,” as required by
15 U.S.C. § 1692g(a). Liberally construed, the
Amended Complaint alleges that the filings in the
foreclosure
action
constituted
the
initial
communication, but § 1692g(d) provides that “formal
pleading [s] in a civil action” are not “initial
communication^]” that trigger the statutory notice
requirements.
3. Leave to Replead
In the alternative, Johnson-Gellineau argues
that she should be permitted to file a second
amended complaint that alleges additional details
about an adverse document attached to the original
complaint and omitted from the Amended
Complaint. Although the District Court mentioned
this document, it expressly did not rely upon it.
Because the document is unnecessary to support the
District Court’s dismissal of this action, JohnsonGellineau’s proposed amendment is futile. The
District Court did not err when it denied leave to
replead. See Cuoco v. Moitsugu, 222 F.3d 99, 112 (2d
Cir. 2000).
We have considered Johnson-Gellineau's
remaining arguments and conclude that they are
without merit. For the foregoing reasons, the
judgment of the District Court is AFFIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

9
APPENDIX C - District Court Decision
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
NICOLE JOHNSON-GELLINEAU,
Plaintiff,
v.
STEINE & ASSOCIATES, P.C.; CHRISTOPHER
VIRGA, ESQ.; RONNI GINSBERG, ESQ.;
JPMORGAN CHASE BANK NATIONAL
ASSOCIATION; and WELLS FARGO BANK
NATIONAL ASSOCIATION, as Trustee for
Carrington Mortgage Loan Trust, Series 2007-FRE1,
Asset-Backed Pass-Through Certificates,
Defendants.
No. 16-CV-9945 (KMK)
OPINION & ORDER
Appearances:
Nicole Johnson-Gellineau Beacon, NY
Pro Se Plaintiff
Matthew J. Bizzaro, Esq.
L’Abbate, Balkan, Colavita & Contini, LLP
Garden City, NY
Counsel for Defendants Steine & Associates, P.C.,
Christopher Virga, Esq., and Ronni Ginsberg, Esq.
Brian P. Scibetta, Esq.
Buckley Madole, P.C.
Iselin, NJ
Counsel for Defendants JPMorgan Chase Bank
National Association and Wells Fargo Bank National
Association

10
KENNETH M. KARAS, District Judge:
Nicole Johnson-Gellineau (“Plaintiff’) brings this
Action against the law firm Steine & Associates, P.C.
(“Steine”), attorneys Christopher Virga, Esq.
(“Virga”) and Ronni Ginsberg, Esq. (“Ginsberg”)
(together, “Attorney Defendants”), JPMorgan Chase
Bank National Association (“Chase”), and Wells
Fargo Bank National Association, as Trustee for
Carrington Mortgage Loan Trust, Series 2007-FRE1,
Asset-Backed Pass-Through Certificates (“Wells
Fargo”) (together, “Bank Defendants”) (collectively,
“Defendants”), seeking damages for alleged
violations of the Fair Debt Collection Practices Act
(“FDCPA”), 15 U.S.C. § 1692 et seq. (See Am. Compl.
(Dkt. No. 58).) Before the Court are the Attorney
Defendants’ and the Bank Defendants’ Motions To
Dismiss. (See Dkt. Nos. 80, 75.) For the following
reasons, the Motions are granted.
I. Background
A. Factual Background
The following facts are drawn from Plaintiffs
Amended Complaint and documents attached to it,
and are taken as true for the purpose of resolving the
instant Motion.
On December 18, 2006, Plaintiff took out a
$262,880.00 loan. (Am. Compl. H 14.) She executed a
note payable to Fremont Investment & Loan
(“Fremont”) or any transferees, denominated “the
Lender,” and the loan was secured by a mortgage on
her home, located at 149 Wilkes St., Beacon, NY
12508 (the “Property”), in favor of Mortgage
Electronic Registration Systems, Inc. (“MERS”), as

11
nominee for Fremont and Fremont’s successors in
interest (the “Mortgage”). (Id.
15-16.) The
Mortgage noted that:
The Note, or an interest in the Note,
together with this Security Instrument, may
be sold one or more times. [Plaintiff] might
not receive any prior notice of these sales.
The entity that collects the Periodic
Payments and performs other mortgage loan
servicing obligations under the Note, this
Security Instrument, and Applicable Law is
called the “Loan Servicer.” There may be a
change of the Loan Servicer as a result of
the sale of the Note. There also may be one
or more changes of the Loan Servicer
unrelated to a sale of the Note. Applicable
Law requires that [Plaintiff] be given
written notice of any change of the Loan
Servicer.
(Id. Tf 16.) The Mortgage was recorded on March 3,
2008 in the Dutchess County Clerk’s Office. (Id.)
“Contemporaneously with or subsequent to”
Plaintiffs mortgage, but prior to Plaintiff defaulting
on that mortgage, an investor “who wished to remain
nameless invested in Plaintiffs Note, became
creditor, and appointed . . . EMC as his
servicer/custodian.” (Id. f 21.) Fremont “lodged
Plaintiffs Note in an irrevocable trust” (the
“Intermediate Trust”) and “completed transfer to
Wells Fargo.” (Id. K 22.) The Intermediate Trust
“provided for transferring Plaintiffs Note” to a trust
entitled the Carrington Mortgage Loan Trust, Series
2007-FRE1, Asset-Backed Pass-Through Certificates
(the “Pass-Through Trust”) in the event of Plaintiffs
default on her Note, with Wells Fargo as Trustee.

12
(Id.)
Plaintiff failed to make payment on her
mortgage due on September 1, 2009, and “failed to
make subsequent payments to bring the loan
current.” (Id. If 23.) On February 22, 2010, an
Assignment of Mortgage from Fremont to Wells
Fargo was signed, and the assignment was recorded
on March 5, 2010 in Dutchess County. (Id. Tf 24.)
Upon transfer of the Note to Wells Fargo, “the right
to collect for Wells Fargo was transferred to Chase,
and Chase began collecting the debt for Wells
Fargo.” (Id. U 26.)
On December 24, 2015, Defendant Virga
contacted the Dutchess County clerk on behalf of
Wells Fargo, transmitted Plaintiffs name, address,
and “information regarding the . . . debt,” and stated
that Wells Fargo sought to recover money owing on
Plaintiffs mortgage. (Id. Tf 48.) On March 17, 2016,
Defendant Ginsberg also contacted the Dutchess
County clerk “on behalf of Chase and transmitted
Plaintiffs name, address, and information regarding
Plaintiffs debt.” (Id. 1f 49.)
Plaintiff alleges that “Chase, in its capacity as
servicer for Wells Fargo, regularly mailed Plaintiff
monthly statements,” and attaches the statements as
an exhibit to the Amended Complaint. (Id. Tj 35; Am.
Compl. Ex. B (“Chase Statements”).) The statements
generally indicate that Plaintiffs Mortgage is “in
default,” and that the “foreclosure process has
started.” (See, e.g., Chase Statements 4, 10, 14.)1 On
1 Because the Chase Statements are not consecutively
paginated, the Court cites to the ECF-generated page number
at the upper right corner of each page.

13
January 12, 2016, Plaintiff mailed Chase a
Consumer Notice of Dispute disputing the entire
debt, “requiring Chase to cease and desist from
collection efforts,” and requesting “the name of the
creditor to whom the debt is owed.” (Am. Compl.
44.) On January 20, 2016, Chase sent Plaintiff a
letter in response indicating that the owner of
Plaintiffs mortgage is “Wells Fargo Bank NA as
Trustee for CMLT 2007-FREI.” (See Am. Compl.
Tf 45; Am. Compl. Ex. A (“Chase Letter”).)
B. Procedural Background
Plaintiff filed the Complaint on December 23,
2016, alleging that Defendants violated the FDCPA,
15 U.S.C. §§ 1692c(b) and 1692e. (Compl. (Dkt. No.
2).) Plaintiff was granted in forma pauperis status,
(Dkt. No. 4), and the Court issued an Order of
Service on March 30, 2017 to allow Plaintiff to effect
service on Defendants, (Order of Service (Dkt. No.
6)). All Defendants were served. (See Dkt. Nos. 13,
22, 23, 26, 28.) On May 9, 2017, the Attorney
Defendants filed a pre-motion letter indicating the
grounds upon which they would move to dismiss.
(Dkt. No. 20.) The Bank Defendants also filed a pre­
motion letter the next day. (Dkt. No. 21.) Plaintiff
filed letters opposing both pre-motion letters. (See
Dkt. Nos. 24, 25.) On August 11, 2017, the Bank
Defendants filed their Motion To Dismiss and
accompanying papers. (Dkt. Nos. 34-36.) The same
day, after fixing docketing errors, (see Dkt. Nos. 3033), the Attorney Defendants filed their Motion To
Dismiss and accompanying papers, (Dkt. Nos. 39, 40,
42). Plaintiff filed oppositions to both Motions on
October 12, 2017. (Dkt. Nos. 45, 46.) The Attorney
Defendants filed a reply memorandum on November
3, 2017, (Dkt. No. 51), and the Bank Defendants filed

14
a reply memorandum on November 9, 2017, (Dkt.
No. 53).
On March 29, 2018, the Court issued an Opinion
and Order on the Motions To Dismiss. (See Op. &
Order on Defs.’ Mot. (“Opinion”) (Dkt. No. 55).) The
Court rejected Defendants’ arguments that the
Rooker-Feldman Doctrine and collateral estoppel
barred Plaintiffs claims. (See id. at 12-23.) The
Court then granted the Bank Defendants’ Motion on
the basis that Plaintiff failed to sufficiently plead
that Chase and Wells Fargo were debt collectors
under the FDCPA. (See id. at 23-33.) The Court
denied the Attorney Defendants’ Motion without
prejudice; the Court noted that “on October 2, 2017,
the Second Circuit heard oral argument in a case
that presents” the same arguments at issue in this
case—i.e. that documents sent in connection with a
foreclosure action do not constitute debt collection
under the FDCPA—and gave the Attorney
Defendants leave to renew the Motion “once the
Second Circuit issues its opinion.” (Id. at 34.)
On April 30, 2018, Plaintiff filed the operative
Amended Complaint. (See Am. Compl.) On
September 28, 2018, with leave of the Court, (Dkt.
No. 74), the Bank Defendants filed a Motion To
Dismiss, (Bank Defs.’ Not. of Mot. (Dkt. No. 75);
Bank Defs.’ Mem. of Law in Supp. of Mot. To Dismiss
(“Bank Defs.’ Mem.”) (Dkt. No. 77); Bank Defs.’ Decl.
in Supp. of Mot. To Dismiss (“Bank Defs.’ Deck”)
(Dkt. No. 76)), and the Attorney Defendants filed a
Motion for Judgment on the Pleadings, (Attorney
Defs.’ Not. of Mot. (Dkt. No. 80); Attorney Defs.’
Mem. of Law in Supp. of Mot. for Judgment on the
Pleadings (“Att’y Defs.’ Mem.”) (Dkt. No. 83);
Attorney Defs.’ Deck in Supp. of Mot. for Judgment

15
on the Pleadings (“Att’y Defs.’ Decl.”) (Dkt. No. 81)).
Plaintiff filed oppositions to the Motions on
November 30, 2018. (Pl.’s Mem. in Opp’n to Bank
Defs.’ Mot. (“Pl.’s Bank Mem.”) (Dkt. No 87); Pl.’s
Mem. in Opp’n to Attorney Defs.’ Mot. (“Pl.’s Att’y
Mem.”) (Dkt. No. 86).) Defendants filed their
respective replies on January 4, 2019. (Bank Defs.’
Reply in Further Supp. of Mot. To Dismiss (“Bank
Defs.’ Reply”) (Dkt. No. 91); Attorney Defs.’ Reply in
Further Supp. of Mot. for Judgment on the Pleadings
(“Att’y Defs.’ Reply”) (Dkt. No. 93).) On March 29,
2019, Defendants filed a joint letter bringing to the
Court’s attention a Supreme Court opinion issued on
March 20, 2019, Obduskey v. McCarthy & Holthus
LLP, 139 S. Ct. 1029 (2019), and asking the Court to
consider it in deciding their Motions. (Joint Letter
from Defs.’ To Court (Mar. 29, 2019) (“Defs.’ Joint
Letter”) (Dkt. No. 98).) Plaintiff filed a response to
the letter on April 5, 2019. (Letter from Plaintiff to
Court (Apr. 5, 2019) (“Pl.’s Letter”) (Dkt. No. 99).)
II. Discussion
A. Standard of Review
The Bank Defendants move to dismiss Plaintiff s
Amended Complaint pursuant to Federal Rule of
Civil Procedure 12(b)(6); the Attorney Defendants
move for judgment on the pleadings pursuant to
Federal Rule of Civil Procedure 12(c). The standards
of review for a motion to dismiss under Rule 12(b)(6)
for failure to state a claim and Rule 12(c) for
judgment on the pleadings are the same. See
Mantena v. Johnson, 809 F.3d 721, 727 (2d Cir.
2015).
The Supreme Court has held that although a
complaint “does not need detailed factual
allegations” to survive a Motion To Dismiss, “a

16
plaintiffs obligation to provide the grounds of [her]
entitlement to relief requires more than labels and
conclusions, and a formulaic recitation of the
elements of a cause of action will not do.” Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 555 (2007)
(alteration and quotation marks omitted). Indeed,
Rule 8 of the Federal Rules of Civil Procedure
“demands more than an unadorned, the-defendantunlawfully-harmed-me accusation.” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (quotation marks omitted).
“Nor does a complaint suffice if it tenders naked
assertions devoid of further factual enhancement.”
Id. (alteration and quotation marks omitted).
Instead, a complaint’s “[f] actual allegations must be
enough to raise a right to relief above the speculative
level.” Twombly, 550 U.S. at 555. Although “once a
claim has been stated adequately, it may be
supported by showing any set of facts consistent with
the allegations in the complaint,” id. at 563, and a
plaintiff must allege “only enough facts to state a
claim to relief that is plausible on its face,” id. at
570, if a plaintiff has not “nudged [his or her] claims
across the line from conceivable to plausible, the[|
complaint must be dismissed,” id.; see also Iqbal, 556
U.S. at 679 (“Determining whether a complaint
states a plausible claim for relief will ... be a
context-specific task that requires the reviewing
court to draw on its judicial experience and common
sense. But where the well-pleaded facts do not
permit the court to infer more than the mere
possibility of misconduct, the complaint has
alleged—but it has not ‘show[n]’—‘that the pleader is
entitled to relief.’” (citation omitted) (second
alteration in original) (quoting Fed. R. Civ. P.
8(a)(2))); id. at 678-79 (“Rule 8 marks a notable and
generous departure from the hypertechnical, code-

17
pleading regime of a prior era, but it does not unlock
the doors of discovery for a plaintiff armed with
nothing more than conclusions.”).
In considering Defendants’ Motions, the Court is
required to “accept as true all of the factual
allegations contained in the [C]omplaint.” Erickson
v. Pardus, 551 U.S. 89, 94 (2007) (per curiam); see
also Nielsen v. Rabin, 746 F.3d 58, 62 (2d Cir. 2014)
(same). And, the Court must “drawQ all reasonable
inferences in favor of the plaintiff.” Daniel v. T & M
Prot. Res., Inc., 992 F. Supp. 2d 302, 304 n.l
(S.D.N.Y. 2014) (citing Koch u. Christie’s Int’l PLC,
699 F.3d 141, 145 (2d Cir. 2012)). Where, as here, a
plaintiff proceeds pro se, the Court must
“construe [] [her complaint] liberally and interpret Q
[it] to raise the strongest arguments that [it]
suggest[s].” Sykes v. Bank of Am., 723 F.3d 399, 403
(2d Cir. 2013) (per curiam) (quotation marks
omitted). However, “the liberal treatment afforded to
pro se litigants does not exempt a pro se party from
compliance with relevant rules of procedure and
substantive law.” Bell v. Jendell, 980 F. Supp. 2d
555, 559 (S.D.N.Y. 2013) (quotation marks omitted).
Generally, “[i]n adjudicating a Rule 12(b)(6)
motion, a district court must confine its
consideration to facts stated on the face of the
complaint, in documents appended to the complaint
or incorporated in the complaint by reference, and to
matters of which judicial notice may be taken.”
Leonard F. v. Isr. Disc. Bank of N.Y., 199 F.3d 99,
107 (2d Cir. 1999) (quotation marks omitted).
However, when the complaint is pro se, the Court
may consider “materials outside the complaint to the
extent that they are consistent with the allegations
in the complaint,” Alsaifullah v. Furco, No. 12-CV-

18
2907, 2013 WL 3972514, at *4 n.3 (S.D.N.Y. Aug. 2,
2013) (quotation marks omitted), including,
“documents that a pro se litigant attaches to [her]
opposition papers,” Agu v. Rhea, No. 09-CV-4732,
2010 WL 5186839, at *4 n.6 (E.D.N.Y. Dec. 15, 2010)
(italics omitted), and “documents that the plaintiffQ
either possessed or knew about and upon which [she]
relied in bringing the suit,” Rothman v. Gregor, 220
F.3d 81, 88 (2d Cir. 2000).
Here, Plaintiff chose to omit several of the
documents she attached to her original Complaint
from her Amended Complaint. Defendants urge the
Court to consider several of these documents in
deciding their Motions. (See Bank Defs.’ Mem. 10—
11; Att’y Defs.’ Mem. 10—11 n.l.) However, Plaintiff
argues that the Court can only consider the
Amended Complaint and the documents she
attached or relied on therein, asserting that
“Plaintiff integrated only enough facts and exhibits
she ‘wishes the Court to consider’ to nudge her claim
over the line from conceivable to plausible.” (Pl.’s
Bank Mem. 2.) Plaintiff states that the Amended
Complaint relies only on “the publicly recorded
Assignment of Mortgage . . . , and ... a 2013 Limited
Power of Attorney from Wells Fargo granting
servicing rights to Chase.” (Id. at 2; see also id. at 4-6
(arguing that the Court cannot consider the
modification agreement attached to the original
Complaint but omitted from the Amended
Complaint, because “[t]he [Amended Complaint] is
the operative complaint and the original complaint
has no legal effect,” and because the document is
“inconsistent with” the Amended Complaint).)
Although courts in pro se cases are authorized to
consider materials outside the complaint under some

19
circumstances, see Alsaifullah, 2013 WL 2972514, at
*4 n.3 (noting that “although courts generally may
not look outside the pleadings when reviewing a
Rule 12(b)(6) motion to dismiss, the mandate to read
the papers of pro se litigants generously makes it
appropriate to consider [a] plaintiffs additional
materials” (citation and quotation marks omitted)),
here, Plaintiff expressly argues that the Court may
not consider her prior Complaint and documents
that she intentionally omitted from her Amended
Complaint. Accordingly, the Court will consider only
the documents attached to or relied on in the
Amended Complaint, and documents of which the
Court may take judicial notice, including “documents
filed in other courts,” which Plaintiff concedes the
Court may properly consider “not for the truth of the
matters asserted in the other litigation, but rather to
establish the fact of such litigation and related
filings.” (Pl.’s Bank Mem. 4-5.) See Newby v. GVCII,
Inc., No. 17-CV-9742, 2018 WL 1989588, at *2
(S.D.N.Y. Apr. 25, 2018) (“A court may rely on
matters of public record in deciding a motion to
dismiss under Rule 12(b)(6).” (citation and quotation
marks omitted)); Houck v. US Bank NA, No. 15-CV10042, 2016 WL 5720783, at *4 (S.D.N.Y. Sept. 30,
2016) (“Courts are permitted to take judicial notice of
state court documents, even on a motion to
dismiss.”), affd, 689 F. App’x 662, 664-65 (2d Cir.
2017). Therefore, in deciding Defendants’ Motions,
the Court will rely solely on the documents attached
to the Amended Complaint, and on publicly filed
documents submitted by Defendants, including the
Consent Order, pursuant to which Chase became the
successor servicer to loans formerly serviced by EMC
as of April 1, 2011, (Bank Defs.’ Decl. Ex. 8 (Consent
Order, In re JPMorgan Chase & Co. and EMC

20

Mortg. Corp., Dkt. No. 11-023 (U.S. Board of
Governors of the Fed. Reserve Sys.) (“Consent
Order”); see also Opinion 7 n.6 (taking judicial notice
of the Consent Order)), and the documents filed in
Plaintiffs state court foreclosure action (the
“Foreclosure Action”), (Bank Defs.’ Decl. Ex. 2
(“Foreclosure Compl.”); Bank Defs.’ Decl. Ex. 3
(“Foreclosure Answer”); Bank Defs.’ Decl. Ex. 4
(“Foreclosure Mot. for Summ. J.”); Bank Defs.’ Decl.
Ex. 5 (“Foreclosure Order”); Bank Defs.’ Decl. Ex. 6
(“Judgment of Foreclosure”); Bank Defs.’ Decl. Ex. 7
(“Foreclosure Action Docket”)).
B. Analysis
Plaintiff alleges that Defendants violated the
FDCPA, 15 U.S.C. § 1692c(b), by sending or causing
to be sent communications in connection with the
collection of Plaintiffs debt to the Dutchess County
clerk, and 15 U.S.C. §§ 1692e and 1692g, for failing
to identify Plaintiffs current creditor in its attempts
to collect the debt. (Am. Compl. ^ 63—64.)
Defendants seek dismissal on the grounds that
Plaintiffs claims are barred by the Rooker-Feldman
doctrine and collateral estoppel, and, in the
alternative, that the Complaint fails to state a claim
under the FDCPA. (See generally Bank Defs.’ Mem.;
Att’y Defs.’ Mem.)
1. Rooker-Feldman and Collateral Estoppel2

2 The Court notes that this argument relating to the Court’s
jurisdiction should have been brought pursuant to Rule
12(b)(1), rather than Rule 12(b)(6). However, this posture does
not affect the Court’s analysis, because “[t]he only substantive
difference” between a motion to dismiss under Rule 12(b)(6)
and Rule 12(b)(1) is that, under the latter motion, Plaintiff

21
In connection with their Motions To Dismiss the
original Complaint, Defendants argued that
Plaintiffs FDCPA claims were barred by the RookerFeldman Doctrine and by collateral estoppel,
because Plaintiff effectively seeks to challenge the
outcome of the Foreclosure Action. (See Opinion 14,
20.) The Court rejected these arguments.
Specifically, the Court held that Plaintiff s claims are
not barred by Rooker-Feldman because she “is not
complaining of an injury caused by the Judgment of
Foreclosure,” and because deciding Plaintiffs claims
in her favor “would not invalidate the Judgment of
Foreclosure or contradict the New York Supreme
Court’s conclusion.” (See id. at 14-20.) With respect
to collateral estoppel, the Court held that Plaintiff is
not collaterally estopped from bringing her FDCPA
claims because the question of whether Wells Fargo
was Plaintiffs creditor under the FDCPA was not
raised or decided in the Foreclosure Action. (See id.
at 20-23.)
The Bank Defendants seek to renew these
arguments based on “the additional attention
devoted to these allegations in the [Amended
Complaint].” (Bank Defs.’ Mem. 12.) In doing so, the
Bank Defendants rely on the exact arguments the
Court previously rejected—that in order to find for
Plaintiff, the Court would necessarily have to rule
“in direct contradiction to the state court’s
judgment.” (Id. at 13.) The Amended Complaint,
although it alleges slightly different facts and omits

bears “the burden of proof’ of establishing jurisdiction. Fagan v.
U.S. Dist. Court for S. Dist. of New York, 644 F. Supp. 2d 441,
447 n.7 (S.D.N.Y. 2009) (citation and quotation marks omitted).

22

others, brings the same two FDCPA claims based on
the same legal theories as the original Complaint.
The Court therefore declines to alter its prior
determination that neither the Rooker-Feldman
Doctrine nor collateral estoppel bars Plaintiffs
claims.
2. FDCPA
“The purpose of the FDCPA is to ‘eliminate
abusive debt collection practices by debt collectors, to
insure that those debt collectors who refrain from
using abusive debt collection practices are not
competitively disadvantaged, and to promote
consistent State action to protect consumers against
debt collection abuses.’” Kropelnicki v. Siegel, 290
F.3d 118, 127 (2d Cir. 2002) (quoting 15 U.S.C. §
1692e). “The FDCPA establishes certain rights for
consumers whose debts are placed in the hands of
professional debt collectors for collection, and
requires that such debt collectors advise the
consumers whose debts they seek to collect of
specified rights.” Id. (citation and quotation marks
omitted). “Debt collectors that violate the FDCPA are
strictly liable, meaning that a consumer need not
show intentional conduct by the debt collector to be
entitled to damages.” Easterling v. Collecto, Inc., 692
F.3d 229, 234 (2d Cir. 2012) (citation and quotation
marks omitted). Moreover, “a single violation of the
FDCPA is sufficient to impose liability’ on a debt
collector under the statute. See Ellis v. Solomon &
Solomon, P.C., 591 F.3d 130, 133 (2d Cir. 2010).
“To state a claim under the FDCPA, a plaintiff
must show (1) [s]he has been the object of collection
activity arising from consumer debt, (2) the
defendant is a debt collector as defined by the
FDCPA, and (3) the defendant has engaged in an act

23
or omission prohibited by the FDCPA.” Nath v. Select
Portfolio Servicing, Inc., No. 15-CV-8183, 2017 WL
782914, at *11 (S.D.N.Y. Feb. 28, 2017) (citation and
quotation marks omitted); see also Okyere v.
Palisades Collection, LLC, 961 F. Supp. 2d 508, 514
(S.D.N.Y. 2013) (same).3
Construed liberally, the Complaint alleges that
(1) the Attorney Defendants violated 15 U.S.C. §
1692c(b) by sending communications in connection
with the collection of the debt to the Dutchess
County clerk in furtherance of the Foreclosure
Action, and (2) all Defendants violated §§ 1692e and
1692g(a)(2) by failing to identify the creditor in their
communications with Plaintiff. (See generally Am.
Compl.) The Bank Defendants argue that Plaintiff
fails to plead that Wells Fargo and Chase are “debt
collectors” as defined by the FDCPA, and also fails to
plead that Chase engaged in “debt collection” activity
as defined in the FDCPA. (See Bank Defs.’ Mem. 8—
19.) The Attorney Defendants argue that Plaintiff
fails to plead that the Attorney Defendants
attempted to collect a debt without a creditor, and
that any documents submitted in connection with
Plaintiffs foreclosure action do not violate the
FDCPA. (Att’y Defs.’ Mem. 3-15.)
a. Bank Defendants
As a threshold matter, “[t]he relevant provisions
of the FDCPA apply only to the activities of a ‘debt
collector,’” Schuh v. Druckman & Sinel, L.L.P., 602
F. Supp. 2d 454, 462 (S.D.N.Y. 2009) (citation

3 No Party disputes that Plaintiff is a consumer owing a debt,
which satisfies the first element.

24
omitted), and generally, “creditors are not subject to
the FDCPA,” Maguire v. Citicorp Retail Servs., Inc.,
147 F.3d 232, 235 (2d Cir. 1998). Under the FDCPA,
[t]he term “debt collector” means any
person who uses any instrumentality of
interstate commerce or the mails in any
business the principal purpose of which is
the collection of any debts, or who regularly
collects or attempts to collect, directly or
indirectly, debts owed or due or asserted to
be owed or due another.
15 U.S.C. § 1692a(6); see also Goldstein v. Hutton,
374 F.3d 56, 61 (2d Cir. 2004) (“The FDCPA
establishes two alternative predicates for ‘debt
collector’ status—engaging in such activity as the
‘principal purpose’ of the entity’s business and
‘regularly’ engaging in such activity.” (citation
omitted)). However, the term “debt collector” does
not include:
any person collecting or attempting to
collect any debt owed or due or asserted to
be owed or due another to the extent such
activity (i) is incidental to a bona fide
fiduciary obligation or a bona fide escrow
arrangement; (ii) concerns a debt which was
originated by such person; (iii) concerns a
debt which was not in default at the time it
was obtained by such person; or (iv)
concerns a debt obtained by such person as
a secured party in a commercial credit
transaction involving the creditor.
15 U.S.C. § 1692a(6)(F). By contrast,
The term “creditor” means any person
who offers or extends credit creating a debt
or to whom a debt is owed, but such term
does not include any person to the extent

25
that he receives an assignment or transfer
of a debt in default solely for the purpose of
facilitating collection of such debt for
another.
Id. § 1692a(4). Put simply, a debt collector collects
debt owed to another person, while a creditor seeks
to collect on a debt owed to it. This “distinction
between creditors and external debt collectors
reflects Congress’s judgment that debt collectors
were more likely than creditors to engage in abusive
practices: Whereas creditors seeking to recover their
own debts are apt to be restrained by their desire to
maintain a good relationship with the consumer, a
third-party debt collector does not have the same
inhibition.” Muniz v. Bank of Am., N.A., No. 11-CV8296, 2012 WL 2878120, at *3 (S.D.N.Y. July 13,
2012). The same logic applies to loan servicers acting
as “agents of the creditor.” Franceschi v. MautnerGlick Corp., 22 F. Supp. 2d 250, 254 (S.D.N.Y. 1998).
The Bank Defendants argue that they are not
“debt collectors,” and thus not subject to the FDCPA.
(Bank Defs.’ Mem. 8-19.) The Court will address this
argument with respect to Wells Fargo and Chase
separately.
i. Wells Fargo
Plaintiff alleges that Wells Fargo is a debt
collector within the meaning of the FDCPA because
it uses “post-default trusts” to “acquire legal title to
defaulted Notes solely for the purpose of facilitating
collection of debt due, or asserted to be due, the
investor, for the investor.” (Am. Compl. If 31.) The
Bank Defendants argue that Wells Fargo is a
“creditor,” rather than a debt collector, because it is
“attempting to collect its own debt.” (Bank Defs.’
Mem. 10.)

26

Plaintiff argues that Wells Fargo “is collecting as
trustee for one or more third-party beneficial interest
holders,” and that “[a] fiduciary relationship is
traditionally and reasonably inferred.” (Pl.’s Bank
Mem. 8—9.) Plaintiff insists that because Wells Fargo
“obtained the debt and foreclosed ‘as trustee,’” it did
not foreclose “for ‘its own account.’” (Id. at 11.)
However, as the Court explained in its prior Opinion,
(Opinion 26), when Wells Fargo acts as trustee for
the mortgage loan trust, it acts on behalf of, or as,
the trust itself, and therefore collects the debt on its
own behalf, see Wight v. BankAmerica Corp., 219
F.3d 79, 87 (2d Cir. 2000) (“[A] trustee stands in the
shoes of the corporation.”). That Wells Fargo is a
“trustee” does not mean, as Plaintiff contends, that it
is collecting debt owed to another. (Contra Pl.’s Bank
Mem. 8-9.) Indeed, courts frequently find entities
acting in the trustee capacity that Wells Fargo does
here to be creditors under the FDCPA. See, e.g.,
Munroe v. Specialized Loan Serv. LLC, No. 14-CV1883, 2016 WL 1248818, at *1, *5 (E.D.N.Y. Mar. 28,
2016) (finding that the Bank of New York, as Trustee
for the Certificate Holders of CWMBS, Inc., CIL
Mortgage Pass-Through Trust 2004-04 Mortgage
Pass-Through Certificates Sires 2005-4, “is a
‘creditor’ not a ‘debt collector’ under the FDCPA,”
because it was collecting on behalf of itself (citation
omitted)); Houck, 2016 WL 5720783, at *9 (holding
that US Bank as Trustee for Citigroup Mortgage
Loan Trust 207-AR5 is not a debt collector under the
FDCPA), aff’d, 689 F. App’x 662, 664-65 (2d Cir.
2017) (“Because the [defendants are ‘creditors’
seeking to collect debts owed to them, the district
court appropriately concluded that. . . U.S. Bank [is]
not [a] ‘debt collector 0’ within the meaning of the
statute.”). Plaintiff’s assertion that Wells Fargo is

27
not collecting on Plaintiffs debt for its own account
because it is acting as trustee is thus contradicted by
the caselaw.
Plaintiff also argues that Wells Fargo acquired
the debt after Plaintiff defaulted solely for purposes
of collection, and therefore cannot be a creditor
under the FDCPA. (Am. Compl.
31; Pl.’s Bank
Mem. 4, 7-8.) The Court previously held that the
Modification Agreement submitted with Plaintiffs
original Complaint demonstrated that Wells Fargo
acquired the Note and Mortgage on August 26, 2008,
before Plaintiff defaulted. (See Opinion 27.) Plaintiff
notably did not attach the Modification Agreement to
her Amended Complaint, and insists that the Court
cannot consider it because the Amended Complaint
does not expressly rely on it. (Pl.’s Bank Mem. 4—6.)
However, even in cases involving pro se plaintiffs,
“where allegations in an amended pleading ‘directly
contradict’ pleadings in the original complaint,
courts have disregarded the amended pleading.”
Brooks v. 1st Precinct Police Dep’t, No. ll-CV-6070,
2014 WL 1875037, at *2 (E.D.N.Y. May 9, 2014)
(citation omitted); see also Kilkenny v. Law Office of
Cushner & Garvey, L.L.P., No. 08-CV-588, 2012 WL
1638326, at *5 (S.D.N.Y. May 8, 2012) (“There is
authority supporting the notion that a court may
disregard amended pleadings when they directly
contradict facts that have been alleged in prior
pleadings.”); Palm Beach Strategic Income, LP v.
Salzman, No. 10-CV-261, 2011 WL 1655575, at *5
(E.D.N.Y. May 2, 2011) (noting that “a district court
has no obligation to accept as true an amended
complaint’s allegations, if they directly contradict the
facts set forth in his original complaint” (citation,
alteration, and quotation marks omitted)), aff’d, 457

28

F. App’x 40 (2d Cir. 2012); Wallace v. N.Y.C. Dep’t of
Corr., No. 95-CV-4404, 1996 WL 586797, at *2
(E.D.N.Y. Oct. 9, 1996) (dismissing pro se amended
complaint based on “facts set forth in his original
complaint” where the plaintiff “blatantly change [d]
his statement of the facts in order to respond to the
defendants’ motion to dismiss”). This is particularly
relevant where, as here, “Plaintiff relied on the facts
demonstrated by exhibits attached to Pier] . . .
Complaint, rather than merely allegations in the
Complaint, and the Court found that the facts
reflected in those exhibits” defeated Plaintiffs
claims. James v. Gage, No. 15-CV-106, 2019 WL
1429520, at *7 (S.D.N.Y. Mar. 29, 2019) (finding that
the plaintiffs omission of exhibits included in prior
versions of his complaint in order to evade dismissal
of his claims presented “the kind of rare occasion in
which it is appropriate to depart from the usual rule
that an amended complaint supersedes all prior
complaints” (citation, alteration, and quotation
marks omitted)); see also Torres u. Howell, No. 03CV-2227, 2006 WL 1525942, at *2 (D. Conn. May 30,
2006) (considering on a motion to dismiss “the . . .
facts from [the plaintiffs] amended complaint and
the exhibits attached to both his original and
amended complaints” (citing Levy v. Southbrook Int’l
Invs., Ltd., 263 F.3d 10, 13 n.3 (2d Cir. 2001))).
Nevertheless, even without considering the
Modification Agreement, Wells Fargo is not a debt
collector under the FDCPA merely because it
allegedly acquired the debt after default. “[E]ven
where an entity acquires a defaulted debt, it is not a
debt collector where it does not engage in collection
activities or seek to collect on its own behalf rather
than ‘for another.’” Munroe, 2016 WL 1248818, at *5

29
(collecting cases); see also Henson v. Santander
Consumer USA Inc., 137 S. Ct. 1718, 1724 (2017)
(“[The] language [of § 1692a(6) does not] appear to
suggest that we should care how a debt owner came
to be a debt owner—whether the owner originated
the debt or came by it only through a later purchase.
All that matters is whether the target of the lawsuit
regularly seeks to collect debts for its own account or
does so for ‘another.’”); George v. Nationstar Mortg.,
LLC, No. 16-CV-261, 2017 WL 3316065, at *9
(E.D.N.Y. Aug. 2, 2017) (holding the defendant who
allegedly “received the debt by assignment . . . three
months after [the] [p]laintiff defaulted on the
[m]ortgage” is “not a ‘debt collector’ under the
FDCPA” because “it is . . . clear from the . . .
underlying foreclosure proceeding that [the
defendant] sought to collect its own debt under the
Mortgage, and not the debt of another”); Estate of
Izzo v. Vanguard Funding, LLC, No. 15-CV-7084,
2017 WL 1194464, at *13 (E.D.N.Y. Mar. 30, 2017)
(explaining that “the caselaw makes clear that ... a
loan servicing company who is assigned a defaulted
mortgage but does not seek to collect the debt for an
entity other than itself ... is [not] a debt collector
subject to the FDCPA’s provisions”); Daniels v. US
Bank Nat’l Ass’n, No. 15-CV-5163, 2016 WL
5678563, at *4 (E.D.N.Y. Sept. 28, 2016) (“Even
where an entity acquired a defaulted debt, it is not a
debt collector pursuant to the FDCPA where it does
not engage in collection activities ‘for another.’”);
Izmirligil v. Bank of New York Mellon, No. 11-CV4491, 2013 WL 1345370, at *4 (E.D.N.Y. Apr. 2,
2013) (explaining that because “plaintiff alleges that
BNYM is a debt collector simply because BNYM took
an assignment of the alleged debt while the debt was
allegedly in default,” but “does not sufficiently allege

30

that BNYM is a debt collector in the first place,” the
exception to the definition of “debt collector” under §
1692a(6)(F)(iii) for debts not in default “is
irrelevant”). Although Plaintiff correctly notes that
the exception to the definition of “creditor” under §
1692a(4) includes a person who “receives an
assignment or transfer of a debt in default solely for
the purpose of facilitating collection of such debt,” it
also expressly states that the person must be
collecting such debt “for another.” 15 U.S.C. §
1692a(4). Section 1692a(6) similarly limits the term
“debt collector” to only those who collect “debts owed
or due or asserted to be owed or due another.” 15
U.S.C. § 1692a(6). To hold that anyone who attempts
to collect on a debt acquired after default violates the
FDCPA, even if collecting the debt for his or her own
account, would render the words “for another”
meaningless, a practice the Court is to avoid. See
Beck v. Prupis, 529 U.S. 494, 506 (2000) (describing
“the longstanding canon of statutory construction
that terms in a statute should not be construed so as
to render any provision of that statute meaningless
or superfluous”). Thus, because Wells Fargo is a
“person ... to whom a debt is owed,” and did not
acquire the debt in default “solely for the purpose of
facilitating collection of such debt for another,” Wells
Fargo was Plaintiffs creditor under the FDCPA. 15
U.S.C. § 1692a(4) (emphasis added).
The Amended Complaint also alleges that Wells
Fargo regularly collects debt; specifically, Plaintiff
alleges that Wells Fargo “receives and acquires tens
of thousands of consumer mortgage debts in default
each calendar year since 2008,” and that it operates
a “post-default-trust business model” pursuant to
which it creates “pass-through trusts” that acquire

31
defaulted loans and, “as trustee of these post-default
pass-through trusts,” is involved in collecting on the
defaulted debt. (Am. Compl. If 29.) Even if true,
these allegations indicate that Wells Fargo regularly
seeks to collect debt on its own behalf, rather than
. debt owed to another, and therefore do not make
Wells Fargo a debt collector under the FDCPA. See
Henson, 137 S. Ct. at 1724 (“[WJhile the statute
surely excludes from the debt collector definition
certain persons who acquire a debt before default, it
doesn’t necessarily follow that the definition must
include anyone who regularly collects debts acquired
after default. After all and again, under the
definition at issue before us you have to attempt to
collect debts owed another before you can ever
qualify as a debt collector.”); Bank of New York
Mellon Tr. Co. N.A. v. Henderson, 862 F.3d 29, 34
(D.C. Cir. 2017) (holding a bank was not a debt
collector because “the Bank is [not] seeking to collect
[a debt] ‘due another,’” but is rather “the current
holder of the Note and Deed of Trust,” and noting the
fact “[t]hat the debt was already in default when the
Bank purchased it did not make the Bank a debt
collector”); George, 2017 WL 3316065, at *8 (“[E]ven
where an entity acquires a defaulted debt, it is not a
debt collector where it does not engage in collection
activities or where it seeks to collect on its own
behalf rather than ‘for another.’”).4

4 Plaintiff also invokes the “false name exception,” which
provides that the term “debt collector” includes “any creditor
who, in the process of collecting his own debts, uses any name
other than his own which would indicate that a third person is
collecting or attempting to collect such debts.” 15 U.S.C.
§ 1692a(6). Plaintiff clarifies in her memorandum that she “did

32

The Court therefore grants Wells Fargo’s Motion
To Dismiss Plaintiffs FDCPA claims against it
because it is not a debt collector.5
ii. Chase
Chase argues that it is not a debt collector,
because it began servicing Plaintiffs loan before
default. (Bank Defs.’ Mem. 15-16.) The Bank
Defendants rely in part on the Modification
Agreement, (id. at 15), and, as already discussed,
Plaintiff strenuously objects to consideration of this
document, (Pl.’s Bank Mem. 4-6). However,
Plaintiffs own Amended Complaint alleges that
EMC was appointed as servicer of the loan “prior to

not allege that Wells Fargo is the creditor that used a false
name,” but rather that any argument that Wells Fargo is both
the trustee and beneficiary of the trust suggests “an
impermissible merger,” and that Wells Fargo is therefore
“pretending to be a trustee.” (Pl.’s Bank Mem. 19.) However, no
Party has argued that the trust has no beneficiaries, so this
argument is inapplicable. If indeed Plaintiff “did not allege that
Wells Fargo is the creditor that used a false name,” (id.), then
she has not alleged that Wells Fargo fits within the false name
exception, see Vincent v. Money Store, 736 F.3d 88, 98 (2d Cir.
2013) (explaining that the false name exception applies where
“(1) the creditor uses a name that falsely implies that a third
party is involved in collecting its debts; (2) the creditor pretends
to be someone else; or (3) the creditor uses a pseudonym or
alias.” (citation omitted)).
5 To the extent that the Complaint alleges that Wells Fargo
should be held vicariously liable for Chase’s and the Attorney
Defendants’ purported FDCPA violations, (Am. Compl. 1J 58),
this legal conclusion is inconsistent with governing caselaw,
see, e.g., Munroe, 2016 WL 1248818, at *5 (“[A] creditor that is
not itself a debt collector is not vicariously liable for the actions
of a debt collector it has engaged to collect its debts.” (quotation
marks omitted)).

33

Plaintiffs default,” (Am. Compl. U 21), and the
Consent Order, of which the Court has already taken
judicial notice, (see Opinion 31), indicates that as of
April 1, 2011, Chase became the successor servicer
for loans formerly serviced by EMC, acquiring all of
EMC’s mortgage loan servicing rights, (see Consent
Order 2). In other words, Chase obtained Plaintiffs
loan as part of an acquisition of all of EMC’s
mortgage servicing rights and obligations, rather
than through a specific assignment or transfer of
Plaintiffs mortgage for the purposes of debt
collection after default. As a result, Chase “stand[s]
in the place of [EMC] as Plaintiffs’ loan servicer,”
and obtained Plaintiffs loan, based on Plaintiffs own
allegations and judicially-noticeable documents,
before she defaulted on it, and therefore is not a debt
collector under the FDCPA. Pascal v. JPMorgan
Chase Bank, Nat’l Ass’n, No. 09-CV-10082, 2013 WL
878588, at *4 (S.D.N.Y. Mar. 11, 2013) (citation and
quotation marks omitted). Courts have found
transfers similar to the one between EMC and Chase
here constitute “obtain[ing]” the loan for FDCPA
purposes. See, e.g., Nichols v. BAC Home Loans
Servicing LP, No. 13-CV-224, 2013 WL 5723072, at
*2, *6 (N.D.N.Y. Oct. 18, 2013) (finding, in case
where one entity “transferred the loan and servicing
responsibilities” to the defendant, that the defendant
stood in the shoes of the original loan servicing
company); Pascal, 2013 WL 878588, at *4 (finding
that JPMorgan stood in the place of WaMu, the
original loan servicer, and acquired the loan before
default where the documents established that
“JPMorgan acquired the right to service Plaintiffs’
loan upon its acquisition of WaMu’s assets,”
JPMorgan “assum[ed] all mortgage servicing rights
and obligations of WaMu,” and “JPMorgan would

34
continue to operate WaMu as the servicer of [the]
[plaintiffs’ mortgage” (citations and quotation marks
omitted)).
Because Chase obtained Plaintiffs loan before
she defaulted, Chase meets the exception in
§ 1692a(6)(F)(iii), and Plaintiff has not plausibly pled
that it is a debt collector under the FDCPA. See Roth
v. CitiMortgage Inc., 756 F.3d 178, 183 (2d Cir. 2014)
(affirming dismissal of FDCPA claim against
mortgage servicer because the complaint did not
establish that the servicer “acquired [the plantiffs]
debt after it was in default and so fails to plausibly
allege that [the mortgage servicer] qualifies as a debt
collector under FDCPA” (citing 15 U.S.C. §
1692a(6)(F)(iii))); see also Franceschi, 22 F. Supp. 2d
at 253-54 (holding the § 1692a(6)(F)(iii) exception
covers entities who serviced the loan prior to
default). The Court therefore grants Chase’s Motion
To Dismiss the FDCPA claims against it. See HooChong v. Citimortgage, Inc., No. 15-CV-4051, 2016
WL 868814, at *3 (E.D.N.Y. Mar. 7, 2016)
(“[M]ortgage servicers are not ‘debt collectors’ as
defined by the FDCPA if they obtained the particular
mortgage at issue before the mortgagor defaulted.”);
Pascal, 2013 WL 878588, at *4 (“Mortgage servicers
are therefore not covered by the FDCPA if the debt
at issue was acquired before a customer default.
That is, the FDCPA only covers servicers who obtain
a mortgage that is already in default.” (italics
omitted)); Gabrielle v. Law Office of Martha Croog,
No. 10-CV- 1798, 2012 WL 460264, at *4 (D. Conn.
Feb. 9, 2012) (dismissing FDCPA claims against a
loan servicing and debt collection corporation
because “the complaint [wa]s silent as to whether the
debt was in default when [the loan servicer] acquired

35
it”), affd, 503 F. App’x 89 (2d Cir. 2012).
b. Attorney Defendants
The Amended Complaint alleges that the
Attorney Defendants violated 15 U.S.C. §§ 1692c(b),
1692e, and 1692g(a)(2). (Am. Compl.
63-64.)
However, there are only two factual allegations with
respect to Plaintiffs debt included in the Amended
Complaint against the Attorney Defendants.
Plaintiff alleges that “[o]n December 24, 2015, Virga
. . . contacted the Dutchess County clerk by mail on
behalf of Chase and transmitted Plaintiffs name,
address, and information regarding the same debt
Chase [was] attempting to collect, stating that Wells
Fargo seeks to recover sums of money that are
allegedly due and owing, and stating that the
Plaintiff owes Wells Fargo $430,431.62.” (Am.
Compl. TJ 48.) Similarly, Plaintiff alleges that “[o]n
March 17, 2016, Ginsberg also contacted the
Dutchess County clerk by mail on behalf of Chase
and transmitted Plaintiffs name, address, and
information regarding Plaintiff s debt, the same debt
Chase is attempting to collect, that there is due and
owing to Wells Fargo the sum of $430,431.62.” (Id. T|
49.) Notably, Plaintiff has removed all reference to
the Foreclosure Action relating to her debt from the
Amended Complaint, and includes no detail about
what form these “transmissions” took or in
connection with what proceeding. However, Plaintiff
makes clear in her Memorandum that she is
referring
to
the
Attorney
Defendants’
communications with the county clerk “to further the
foreclosure action,” (Pl.’s Att’y Mem. 21), and the
Court may take judicial notice of the documents filed
in the Foreclosure Action, not for the truth of the
matters asserted but for the existence of the

36

Foreclosure Action and the fact that those filings
were made. Further, Plaintiff concedes that “[t]he
Court can infer that the Defendants were in the
process of attempting to get a Judgment of
Foreclosure and Sale.” (Pl.’s Att’y Mem. 16.)6
Previously, the Court denied the Attorney
Defendants’ Motion To Dismiss without prejudice to
renew after the Second Circuit decided Cohen u.
Rosicki, Rosicki & Associates, P.C. (Opinion 33—34.)
On July 23, 2018, the Second Circuit issued its
opinion holding that “a foreclosure action is an
‘attempt to collect a debt’ as defined by the FDCPA.”
Cohen u. Rosicki, Rosicki & Assocs., P.C., 897 F.3d
75, 82 (2d Cir. 2018) (citations omitted). Therefore, it
is now settled in this Circuit that judicial foreclosure
proceedings are within the purview of the FDCPA.
However, this does not end the Court’s inquiry.
Although Cohen held that conduct by attorneys
representing creditors in foreclosure actions can
violate the FDCPA, it did not hold that the mere
filing of documents in connection with a foreclosure
action violates the FDCPA.
In Cohen, the Second Circuit analyzed claims
under § 1692e, which bars debt collectors from
engaging in “false, deceptive, or misleading”
practices, and § 1692g, which requires a debt
collector to provide a consumer with “a detailed
validation notice” identifying the creditor to whom
the debt is owed, so that he or she may confirm the

6 Indeed, this inference is necessary to establish that the
Attorney Defendants communicated with the Dutchess County
clerk “in connection with the collection of [a] debt,” as required
to state a claim for violation of § 1692c(b).

37

debt is in fact owed before paying it. See Cohen, 897
F.3d at 81. As noted, the Second Circuit held that
filings in a foreclosure action can constitute an
attempt to collect a debt under the FDCPA.
Nevertheless, it went on to affirm dismissal of the
plaintiffs § 1692e claim because the alleged
misidentification of the proper creditor in the filing
at issue was “not material,” and therefore not
actionable under § 1692e. Id. at 84-85.7 It also
affirmed dismissal of the plaintiffs § 1692g claim on
the basis that the documents filed in connection with
the foreclosure action against the plaintiff are not
“initial communications,” and therefore do not
implicate § 1692g(d). Id. at 87-88.
Here, the question is not simply whether
conduct in connection with a foreclosure action can
violate the FDCPA, but specifically whether the
disclosure of the mere existence of Plaintiff s debt in
court filings in foreclosure proceedings violates
§ 1692c(b), and whether the failure to disclose the
beneficiaries of the trust that owned Plaintiffs
mortgage constitutes a material misstatement or
omission under § 1692e or an omission of required

7 The Second Circuit also noted, without deciding, that the
defendants arguably made no misstatement at all, in light of
the differing definitions of the term “creditor” under New York
law and the FDCPA. Cohen, 897 F.3d at 85 (“[T]o determine
whether the defendants’ identification of Green Tree as the
creditor was false or misleading, we would need to resolve th[e]
tension between the different definitions of ‘creditor’ under the
FDCPA and New York law. We do not resolve this issue here
because even if the defendants’ creditor statement was
inaccurate, it would not be material and [the plaintiff s] § 1692e
claim therefore fails.”).

38
information from an initial communication under §
1692g(a)(2).
i. 15 U.S.C. § 1692c(b)
Section 1692c(b) provides:
[W]ithout the prior consent of the
consumer given directly to the debt collector,
or the express permission of a court of
competent jurisdiction, or as reasonably
necessary to effectuate a postjudgment
judicial remedy, a debt collector may not
communicate, in connection with the
collection of any debt, with any person other
than the consumer, his attorney, a consumer
reporting agency if otherwise permitted by
law, the creditor, the attorney of the
creditor, or the attorney of the debt collector.
15 U.S.C. § 1692c(b). In Heintz v. Jenkins, 514 U.S.
291 (1995), the Supreme Court held that the FDCPA
can apply to lawyers who regularly collect consumer
debts through litigation, but noted that “it would be
odd if the Act empowered a debt-owing consumer to
stop the ‘communications’ inherent in an ordinary
lawsuit and thereby cause an ordinary debt­
collecting lawsuit to grind to a halt.” Id. at 296. The
Supreme Court went on to explain that “it is not
necessary to read § 1692c(c) in that way,” and that
courts can plausibly read the exception under
§ 1692c(c)(2), which allows a debt collector or
creditor to “notify the consumer” that it “may invoke
specified remedies which are ordinarily invoked,” 15
U.S.C. § 16c(c)(2), “to imply that they authorize the
actual invocation of the remedy that the collector
‘intends to invoke.’” Id. “The language permits such a
reading, for an ordinary court-related document
does, in fact, ‘notify’ its recipient that the creditor

39
may ‘invoke’ a judicial remedy. Moreover, the
interpretation is consistent with the statute’s
apparent objective of preserving creditors’ judicial
remedies.” Id.
Courts in this and other circuits, relying on
Heintz, have similarly found that communications
made in the context of foreclosure proceedings that
would otherwise violate § 1692c if made to a third
party do not run afoul of the FDCPA. See, e.g.,
Marino v. Nadel, No. 17-CV-2116, 2018 WL 4634150,
at *3 (D. Md. Sept. 27, 2018) (“The filing of an action
to foreclose is a necessary precedent to reaching a
postjudgment judicial remedy, so communications
with a court that are necessary to maintain that
foreclosure action do not violate § 1692c(b).”), aff’d,
No. 18-2283, 2019 WL 1473931 (4th Cir. Apr. 3,
2019); Owoh v. Sena, No. 16-CV-4581, 2018 WL
1221164, at *5 (D.N.J. Mar. 8, 2018) (dismissing
§ 1692c(b) claim where “the basis of [the] [p]laintiffs
claim is [the] [defendants’ filing of the lien with a
county clerk” because it was “necessary in order for
[the] [defendants to perfect their lien”); Cohen v.
Wolpoff & Abramson, LLP, No. 08-CV-1084, 2008
WL 4513569, at *6 (D.N.J. Oct. 2, 2008) (“There is no
cause of action under [§ 1692c(b)] for an attorney’s
communication with a forum in pursuit of a legal
remedy.”); Buffington v. Schuman & Schuman, P.C.,
No. 00-CV-1620, 2001 WL 34082273, at *3 (N.D.N.Y.
Feb. 21, 2001) (holding communications with debtor
did not violate § 1692c because “the allegedly
offending conduct . . . was sent to institute
foreclosure proceedings that were approved by the
Bankruptcy Court,” and “there is no indication from
the record that defendants’ actions involved the type
of abusive conduct that the FDCPA was intended to

40
prevent”); cf. Lautman v. 2800 Coyle St. Owners
Corp., No. 14-CV-1868, 2014 WL 4843947, at *9-10
(E.D.N.Y. Sept. 26, 2014) (dismissing § 1692c(b)
claims against attorneys who represented creditor in
state court proceeding because “[t]he complaint does
not adduce any facts whatsoever to connect these
claims to the [attorney defendants],” but separately
assessing whether attorneys’ filings in state court
violated § 1692e’s prohibition on misleading
statements); Hooks v. Forman Holt Eliades & Ravin
LLC, No. ll-CV-2767, 2012 WL 3322637, at *6
(S.D.N.Y. Aug. 13, 2012) (“[W]here a Defendant is
attempting to comply with state law requirements in
enforcing a specific remedy, a majority of courts have
found that the FDCPA does not stand in the way.”),
rev’d on other grounds, 717 F.3d 282 (2d Cir. 2013).
Plaintiff effectively asks the Court to hold that
creditors may not pursue judicial foreclosure through
their attorneys without violating the FDCPA. But
“Plaintiff has cited no authority—nor is this Court
aware of any—for the proposition that the sole act of
filing a lawsuit,” or documents necessary to
prosecuting that lawsuit which necessarily identify
the nature of the underlying debt, “against a debtor
is a third-party communication prohibited by the
allegation
of
absent
some
statute,”
misrepresentation or other improper communication.
Heagerty v. Lueder, Larkin, & Hunter, LLC, No. 16CV-99, 2016 WL 11580705, at *8 (N.D. Ga. Oct. 21,
2016), adopted by 2016 WL 11580702 (N.D. Ga. Nov.
15, 2016). On the contrary, the Second Circuit in
Cohen clearly contemplated the continuing validity
of creditors pursuing foreclosure proceedings in
holding that conduct in the context of those
proceedings must comply with the FDCPA:

41
Indeed, every mortgage foreclosure,
judicial or otherwise, is undertaken for the
very purpose of obtaining payment on the
underlying debt, either by persuasion (i.e.,
forcing a settlement) or compulsion (i.e.,
obtaining a judgment of foreclosure, selling
the house at auction, and applying the
proceedings from the sale to pay down the
outstanding debt). Moreover, mortgage
foreclosure is contemplated in another
portion of the statute. See 15 U.S.C.
§ 1692i(a)(l).
Cohen, 897 F.3d at 83 (citation, italics, and quotation
marks omitted). Therefore, the Court dismisses
Plaintiffs claims against the Attorney Defendants
under § 1692c(b), based on their disclosure of
Plaintiffs debt to the state court in the context of
pursuing foreclosure, for failure to state a claim.
ii. 15 U.S.C. § 1692e
Plaintiff also alleges that the Attorney
Defendants violated § 1692e, which prohibits “any
false, deceptive, or misleading representation or
means in connection with the collection of any debt.”
15 U.S.C. § 1692e. Plaintiff alleges that her § 1692e
claims constitute the “overarching violation” in this
case, and that all Defendants violated § 1692e by
failing to “identify Plaintiffs current creditor.” (Am.
Compl.
64.) Plaintiffs § 1692e claim against the
Attorney Defendants fails. First, Plaintiffs only
factual allegations against the Attorney Defendants
are that they filed documents in connection with her
foreclosure proceeding that disclosed her debt and
stated the debt was owed to Wells Fargo. (Id. Ijf 4849.) Plaintiffs insistence that “[t]here is no creditor
of Plaintiff to whom the debt is owed,” (id. 68), and

42
that the identification of Wells Fargo as the entity to
whom the debt was owed was therefore misleading,
was rejected by the state court in the Foreclosure
Action, and is thus barred by issue preclusion. (See
Opinion 26 n.17; Judgment of Foreclosure.) The
therefore
made
no
Defendants
Attorney
misrepresentation by indicating to the Dutchess
County clerk that Plaintiffs debt was owed to Wells
Fargo, as Plaintiff alleges. Additionally, as already
discussed, Plaintiffs allegation that the investors in
the Pass-Through Trust are her true creditors, (id. ^
64), is contradicted by caselaw holding that a trustee
can be a creditor within the meaning of the FCDPA.
See, e.g., Munroe, 2016 WL 1248818, at *5 (holding
Bank of New York “as Trustee for the Certificate
Holders of CWMBS, Inc., CIL Mortgage PassThrough Trust 2005-04, Mortgage Pass-Through
Certificates Series 2005-04” was a creditor where the
plaintiffs mortgage was “assigned ... ‘in default’” to
the Bank as trustee). The plain language of
§ 1692a(6) defines “creditor” as, inter alia, any
person “to whom a debt is owed,” as long as they are
not collecting on the debt on behalf of another;
because Plaintiffs debt was indeed “owed” to Wells
Fargo as the trustee, there was no misrepresentation
made by any Party who suggested as much.
Second, even if the investors in the PassThrough Trust were Plaintiffs true creditors under
the FDCPA, the characterization of Wells Fargo,
rather than the beneficiaries of the Trust, as the
entity to whom Plaintiffs debt was owed is not a
material misrepresentation. “[N]ot every technically
false representation by a debt collector amounts to a
violation of the FDCPA, and FDCPA protection does
not extend to every bizarre or idiosyncratic

43
interpretation of a collection notice.” Cohen, 897 F.3d
at 85 (citations and quotation marks omitted). In
Cohen, the Second Circuit held that § 1692e
“incorporates a materiality requirement,” which
requires that “a false statement is only actionable
under the FDCPA if it has the potential to affect the
decision- making process of the least sophisticated
consumer.” Id. (citation, alteration, and quotation
marks omitted). There, the Court concluded that
even if incorrect, the identification of the mortgage
servicer as the “creditor” was an immaterial
misrepresentation “and therefore not actionable
under § 1692e,” because it would not “frustrate a
consumer’s ability to intelligently choose his or her
response.” Id. at 86 (citation and quotation marks
omitted).
As in Cohen, any alleged omission here did not
“misrepresent!] the nature or legal status of
[Plaintiffs] debt” in any manner that “undermined
[her] ability to respond to the debt collection.” Id.
Although Plaintiff alleges that Chase’s purported
concealment of the investor’s identity “affect [ed]
Plaintiffs decision making process,” and that she
“could have disputed entirely differently and much
sooner,” (Am. Compl.
34, 68), she does not explain
how, see Martinez v. I.C. Sys., No. 17-CV-5693, 2019
WL 1508988, at *3 (E.D.N.Y. Mar. 31, 2019)
(dismissing claim under § 1692e where the plaintiff
“failfed] to allege adequately how the purported
[false] statements impaired [the] [p]laintiff from
paying the debt or challenging the debt”); Kelsey v.
Forster & Garbus, LLP, 353 F. Supp. 3d 223, 233
(W.D.N.Y. 2019) (dismissing § 1692e claim because,
even assuming the defendants made false
statements in connection with an underlying state

44
court proceeding, the plaintiff “failed to allege or
otherwise contend that any such falsity could
mislead the least sophisticated consumer as to the
nature and legal status of the underlying debt or
could impede the consumer’s ability to respond to or
dispute collection” (citation, alteration, and
quotation marks omitted)); see also Gabriele v. Am.
Home Mortg. Servicing, Inc., 503 F. App’x 89, 95 (2d
Cir. 2012) (“Although statements made and actions
taken in furtherance of a legal action are not, in and
of themselves, exempt from liability under the
FDCPA, the false statements of which [the plaintiff]
complains do not amount to the kind of misleading
and deceptive practices that fall within the ambit of
the FDCPA, and therefore fail to state a plausible
claim.” (citation omitted)).8

8 Further supporting this conclusion, the Second Circuit has
held that plaintiffs lack standing to challenge assignments of
mortgages to trusts like the one at issue here because, inter
alia, they suffer no injury from not knowing the identities of the
trust beneficiaries. See Rajamin v. Deutsche Bank Nat’l Tr. Co.,
757 F.3d 79, 83 (2d Cir. 2014) (“While alleging that [the]
defendants received and collected money from [the] plaintiffs
that [the] defendants ‘were not entitled to receive and collect’
and seeking as restitution and as damages ‘all payments on the
mortgage loans in issue money [sic] collected and received by
Deutsche Bank and [the] [defendant [t]rusts and their
servicers, agents, employees and representatives,’ the
[c]omplaint did not allege or imply that any plaintiff . . . made
loan payments in excess of amounts due, made loan payments
to any entity other than defendants, or was subjected to
duplicate billing or duplicate foreclosure actions.” (citations and
alterations omitted)); see also Beckford v. Bayview Loan
Servicing, LLC, No. 14-CV-249, 2017 WL 2588084, at *6 (D.
Conn. June 14, 2017) (“Like the plaintiffs in Rajamin and the
cases following it, [the plaintiffs] [a]mended [c]omplaint alleges

45
Therefore, because Plaintiff has included no
allegations that could implicate the Attorney
Defendants in a violation of § 1692e, this claim is
dismissed.
Hi. 15 U.S.C. §1692g(a)(2)
Plaintiff also alleges that the Attorney
Defendants’ failure to disclose Plaintiffs creditor
within five days of its initial communications with
Plaintiff violates § 1692g(a)(2). (See Am. Compl. ^
13, 41.)
Section 1692g(a)(2) states that “[w]ithin five
days after the initial communication with a
consumer in connection with the collection of any
debt, a debt collector shall . . . send the consumer a
written notice containing . . . the name of the
creditor to whom the debt is owed.” 15 U.S.C.
§ 1692g(a)(2); see also Cohen, 897 F.3d at 80 (noting
that § 1692g(a) “requires debt collectors to provide
debtors with the name of the ‘creditor to whom the
debt is owed’ within five days of an ‘initial
communication with a consumer in connection with
the collection of any debt’”).
Plaintiff does not indicate what she considers
the “initial communication” the Attorney Defendants
sent her. In fact, Plaintiff alleges no specific
communications between herself and the Attorney

‘highly implausible’ and ‘entirely hypothetical’ injuries, for
instance that the ‘improper transfer of his debt prevented him
from exploring options with the true debt owner,’ which are too
speculative ‘to serve as a basis for Article III standing.’”
(alterations omitted) (quoting McCarty v. The Bank of N.Y.
Mellon, 669 F. App’x 6, 7 (2d Cir. 2016))), affd, 729 F. App’x 127
(2d Cir. 2018).

46
Defendants at all. At most, the Court can infer that
the filing of the Foreclosure Action was the first
“communication” between the Attorney Defendants
and Plaintiff. However, the statute expressly states
that “[a] communication in the form of a formal
pleading in a civil action shall not be treated as an
initial communication for purposes of [§ 1692g(a)].”
15 U.S.C. § 1692g(d); see also Cohen, 897 F.3d at 8788 & n.9 (holding that documents the attorney
defendants “were legally obligated to file . . . with the
foreclosure complaint” were “covered by § 1962g(d)’s
pleading exclusion,” and noting that “[a] foreclosure
complaint falls squarely within § 1692g(d)’s
exclusion for ‘formal pleadings’” (citation omitted));
Izmirligil, 2013 WL 1345370, at *4 (“[N]either [a]
foreclosure summons nor foreclosure complaint is an
‘initial communication’ under the FDCPA, so as to
trigger a debt collector’s obligations under 15 U.S.C.
§ 1692g.” (citation omitted)). Because Plaintiff fails
to plead any communication between herself and the
Attorney Defendants other than the documents filed
in connection with the Foreclosure Action, this claim
is dismissed.
III. Conclusion
In light of the foregoing analysis, the Court
grants both the Bank Defendants’ Motion To Dismiss
and the Attorney Defendants’ Motion to Dismiss.
Because this is the second adjudication of Plaintiffs
claims on the merits, the dismissals are with
prejudice. See Lastra v. Barnes & Noble Bookstore,
No. ll-CV-2173, 2012 WL 12876, at *9 (S.D.N.Y .
Jan. 3, 2012) (stating that even prose plaintiffs are
not entitled to file an amended complaint if the
complaint "contains substantive problems / such that
an amended pleading would be futile"), aff d, 523 F.

47
App'x 32 (2d Cir. 2013).
The Clerk of Court is respectfully requested to
terminate the pending Motions, (Dkt. Nos. 75, 80), to
mail a copy of this Opinion to Plaintiff, and to close
this case.
SO ORDERED.
Dated:

June 27, 2019
White Plains, New York
KENNETH M. KARAS
UNITED STATES DISTRICT JUDGE

